No. 19·1212
IN THE

$Upreme QCourt of tbe Wntteb $tate%
CHAD

F. WOLF, ACTING SECRETARY OF HOMELAND SECURITY, ET AL.,
Petitioners,
V.

INNOVATION

LAW LAB, ET AL.,

Respondents.

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5, I hereby certify that three copies of
the Brief for Amici Curiae the Laredo Project and the National Immigrant Justice
Center in Support of Respondents in Wolfv. Innovation Law Lab, No. 19·1212, were
served via overnight mail on all parties required:
Office of the Solicitor General

Judy Rabinovitz

DEPARTMENT OF JUSTICE

AMERICAN CIVIL LIBERTIES UNION

Counsel for Petitioners

Counsel for Respondents

950 Pennsylvania Avenue, NW
Washington, D.C. 20530·0001
(202) 514·2217
supremectbriefs@usdoj.gov

125 Broad Street, 18th Floor
New York, NY 10004
(212) 549·2618
JRabinovitz@aclu.org

I declare under penalty of perjury that the foregoing is true and correct.

Date: January 22, 2021

